                Department of Veterans Affairs
                Office of Inspector General



                   Office of Healthcare Inspections

Report No. 14-01785-184




     Combined Assessment Program 

           Summary Report 


     Evaluation of the Controlled 

   Substances Inspection Program at 

    Veterans Health Administration 

               Facilities 





June 10, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                           Evaluation of the Controlled Substances Inspection Program at VHA Facilities



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections completed an
evaluation of the controlled substances (CS) inspection program at Veterans Health
Administration (VHA) facilities. The purpose of the evaluation was to determine whether
VHA facilities complied with requirements related to CS security and inspections and to
follow up on the Office of Inspector General’s report Healthcare Inspection – Review of
Selected Pharmacy Operations in Veterans Health Administration Facilities (Report
No. 07-03524-40, December 3, 2009).

We conducted this review at 58 VHA medical facilities during Combined Assessment
Program reviews performed across the country from October 1, 2012, through
September 30, 2013. We noted high compliance with VHA policy in many areas,
including that CS inspectors (CSIs) were sufficiently rotated and had 3-year term limits
and that inspections were randomly scheduled and completed on the same day
initiated.

We recommended that VHA define in policy acceptable reasons for missed CS area
inspections and provide guidance regarding CS Coordinator performance of monthly
inspections.

To improve operations, we recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that:

	 Pharmacy physical security surveys are conducted and that identified deficiencies
   are corrected.

	 Quarterly CS inspection trend reports of identified discrepancies, problematic trends,
   and potential areas for improvement are completed and provided to facility Directors.

	 Monthly inspections of all non-pharmacy areas with CS are conducted.

	 CSIs validate 2 transfers of CS from one storage area to another area, reconcile
   1 day’s dispensing from the pharmacy to each automated unit, and verify electronic
   or written orders for 5 randomly selected dispensing activities.

	 CSIs perform quarterly physical counts of the emergency drug cache and monthly
   verification of seals.

	 CSIs validate completion of all required drug destruction activities.

	 CSIs validate accountability for all prescription pads stored in the pharmacy.

	 CSIs conducting outpatient pharmacy inspections verify written prescriptions for
   10 percent of (or a maximum of 50) schedule II drugs dispensed.




VA Office of Inspector General                                                                        i
                           Evaluation of the Controlled Substances Inspection Program at VHA Facilities


	 CSIs receive annual training regarding problematic issues identified through external
   surveys and other quality control measures.

Comments
The Under Secretary for Health concurred with the findings and recommendations.
(See Appendix A, pages 7–12, for the full text of the comments.) The implementation
plans are acceptable, and we will follow up until all actions are completed.




                                                             JOHN D. DAIGH, JR., M.D.
                                                            Assistant Inspector General for
                                                              Healthcare Inspections




VA Office of Inspector General                                                                        ii
                           Evaluation of the Controlled Substances Inspection Program at VHA Facilities



                                           Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections completed
an evaluation of the controlled substances (CS) inspection program at Veterans Health
Administration (VHA) facilities. The purpose of the evaluation was to determine whether
VHA facilities complied with requirements related to CS security and inspections and to
follow up on the OIG report Healthcare Inspection – Review of Selected Pharmacy
Operations in Veterans Health Administration Facilities (Report No. 07-03524-40,
December 3, 2009).

                                       Background 

VA requires that managers at VHA facilities ensure that a CS inspection program is
implemented and maintained. In 2008, we conducted an inspection of pharmacy
operations at 43 VHA medical centers during Combined Assessment Program (CAP)
reviews. The review analyzed pharmacy operations, including environment of care,
management of CS, and pharmacy security. Overall, pharmacies complied with VHA
guidelines for pharmacy security and reporting requirements. However, facility
managers needed to reinforce compliance with VHA policy regarding CS inspection
programs. VHA Handbook 1108.02 details requirements for facility CS inspections.
This follow-up review incorporated selected handbook elements and evaluated whether
VHA facility managers implemented and maintained a CS inspection program.

                            Scope and Methodology 

We performed this review in conjunction with 58 CAP reviews of VHA medical facilities
conducted from October 1, 2012, through September 30, 2013. The facilities were a
stratified random sample of all VHA facilities and represented a mix of facility size,
affiliation, geographic location, and Veterans Integrated Service Networks. OIG
generated an individual CAP report for each facility. For this report, we summarized the
data collected from the individual facility CAP reviews.

We reviewed facility CS policies and inspection documents, CS inspector (CSI) and CS
Coordinator (CSC) appointments, training records, and annual pharmacy security
surveys. We used 90 percent as the general level of expectation for compliance. The
training record and CS area samples within each facility were not a probability sample
and thus do not represent the entire population of that facility. Therefore, the summary
results presented in this report are not generalizable to the entire VHA.

Inspectors conducted the reviews in accordance with Quality Standards for Inspection
and Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                       1
                            Evaluation of the Controlled Substances Inspection Program at VHA Facilities



                                   Inspection Results 

All 58 facilities we reviewed had established CS inspection programs. We noted high
compliance with VHA policy in many areas, including that CSIs were sufficiently rotated
and had 3-year term limits and that inspections were randomly scheduled and
completed on the same day initiated. However, we identified opportunities for
improvement in several areas.

Issue 1:        Administrative Program Requirements
Physical Security

VHA requires VA Police to conduct annual physical security surveys of the pharmacy
areas and to take corrective actions to resolve deficiencies.1 Two facilities did not
conduct annual physical security surveys. Of the 45 facilities that had identified physical
security deficiencies, 13 (29 percent) had not taken actions to fully correct them.

We recommended that managers ensure that physical security surveys are conducted
and that identified deficiencies are corrected.

Reporting

CSCs are required to review inspection results and provide facility Directors with
monthly summaries of findings and quarterly trend reports of identified discrepancies,
problematic trends, and potential areas for improvement.2 While facilities met the
requirement for monthly summary reports, 10 (17 percent) of the 58 facilities either did
not complete the quarterly trend reports or did not include all required elements in the
reports.

We recommended that quarterly trend reports of identified discrepancies, problematic
trends, and potential areas for improvement be completed and provided to facility
Directors.

Issue 2:        CS Inspections
Non-Pharmacy CS Inspections

The CSC is responsible for ensuring that required inspections are completed each
month in each area that stores CS. VHA specifies that on a rare occasion, a given area
may go uninspected as long as the area is inspected in the subsequent month.3 We
reviewed inspection documentation for a 6-month period for 544 non-pharmacy areas
and found that 109 areas (20 percent) were missing 1 or more monthly CS inspections.
We noted multiple reasons for missed inspections, including that some CSIs delayed

1
  VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
2
  VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
3
  VHA Handbook 1108.02.


VA Office of Inspector General                                                                        2
                               Evaluation of the Controlled Substances Inspection Program at VHA Facilities


their assigned inspection until the last day of the month and were then unable to
complete the inspection because of illness or other obligations. CSCs were uncertain of
acceptable reasons for missed inspections.

VHA does not provide guidance regarding CSC participation in monthly inspections.
We found that some CSCs were routinely performing monthly inspections. There is
potential the CSC oversight role could be in conflict if the CSC also performs
inspections.

If facilities allow CS transfers, CSIs are required to validate two transfers of CS from
one storage area to another area.4 There were 81 CS areas that had these transfers,
and 18 areas (22 percent) did not have the required validations during 1 or more
monthly inspections.

As part of the inspection process, VHA requires that CSIs reconcile 1 day’s dispensing
from the pharmacy to each automated unit.5 We found that 127 (24 percent) of
527 applicable inspections did not include this reconciliation.

CSIs are required to verify electronic or written orders for five randomly selected
dispensing activities in each CS area. We found that 58 (11 percent) of 545 applicable
inspections lacked this verification.

We recommended that monthly inspections of all non-pharmacy CS areas be conducted
and that VHA define acceptable reasons for missed inspections and provide guidance
on CSC performance of monthly inspections. We also recommended that CSIs validate
2 transfers of CS from one storage area to another area, reconcile 1 day’s dispensing
from the pharmacy to each automated unit, and verify electronic or written orders for
5 randomly selected dispensing activities.

Pharmacy Inspections

We reviewed inspection documentation for a 6-month period for 72 pharmacy areas.

VHA requires quarterly physical counts of the emergency drug cache and monthly
verification of seals.6 For the 63 inspections7 that included an onsite emergency drug
cache, 11 (17 percent) did not include these activities.




4
  VHA Handbook 1108.02. 

5
  VHA Handbook 1108.02. 

6
  VHA Handbook 1108.02. 

7
  Not all facilities had an onsite emergency drug cache. Additionally, at multi-division facilities, the emergency 

drug cache was maintained at only one of the division locations.



VA Office of Inspector General                                                                                         3
                              Evaluation of the Controlled Substances Inspection Program at VHA Facilities


Drug destruction activities are important components of the pharmacy inspection. We
reviewed inspection documentation for 65 areas8 and found that documentation for:
      Seven (11 percent) did not include comparison of drugs held for destruction with
       destruction file holding reports.
      Nine (14 percent) did not include verification that drug destructions were
       completed at least quarterly.
      Fourteen (22 percent) did not include completed verification of the audit trail for
       destruction of 10 randomly selected drugs each month.

CSIs are required to validate accountability for all prescription pads stored in the
pharmacy.9 Eight (11 percent) of 70 applicable inspections did not include this
verification. VHA requires that outpatient pharmacy inspections include verification of
written prescriptions for 10 percent (or a maximum of 50) of schedule II10 drugs
dispensed.11 Eight (12 percent) of 67 applicable inspections did not include these
verifications.

We recommended that CSIs perform quarterly physical counts of the emergency drug
cache and monthly verification of the seals and validate completion of all required drug
destruction activities and accountability for all prescription pads stored in the pharmacy.
We also recommended that in the outpatient pharmacy, CSIs verify written prescriptions
for 10 percent of (or a maximum of 50) schedule II drugs dispensed.

Issue 3:         Training
VHA requires that CSIs be provided an orientation and annual training that includes
problematic issues identified through external survey findings and other quality control
measures.12 Of the 451 CSIs in their positions for more than 1 year, 87 (19 percent)
had not received annual training.

We recommended that CSIs receive annual training regarding problematic issues
identified through external surveys and other quality control measures.

                                            Conclusions 

All 58 facilities we reviewed during fiscal year 2013 had established CS inspection
programs. We noted high compliance (greater than 90 percent) with VHA policy in
many areas, including that CSIs were sufficiently rotated and had 3-year term limits and
that inspections were randomly scheduled and completed on the same day initiated.




8
  Not all facilities had drugs held for destruction during the 6-month period. 

9
  VHA Handbook 1108.02. 

10
   Those with high potential for abuse and possible psychological or physical dependence.

11
   VHA Handbook 1108.02. 

12
   VHA Handbook 1108.02. 



VA Office of Inspector General                                                                          4
                           Evaluation of the Controlled Substances Inspection Program at VHA Facilities


We identified opportunities for improvement in:
   conducting annual physical security surveys and correcting identified deficiencies
   completing quarterly trend reports and providing them to facility Directors
   conducting monthly CS inspections of non-pharmacy areas
   completing non-pharmacy inspection activities
   performing emergency drug cache quarterly physical counts and monthly
      verification of seals
   validating completion of required drug destruction activities, accountability of
      prescription pads stored in the pharmacy, and outpatient pharmacy written
      prescriptions for schedule II drugs
   providing annual CSI training

VHA can strengthen policy by defining acceptable reasons for missed CS area
inspections and providing guidance on CSC performance of monthly inspections.

                                 Recommendations 

1. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that pharmacy physical security
surveys are conducted and identified deficiencies are corrected and that compliance is
monitored.

2. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that quarterly controlled
substances inspection trend reports of identified discrepancies, problematic trends, and
potential areas for improvement are completed and provided to facility Directors.

3. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that monthly inspections of all
non-pharmacy controlled substances areas are conducted and that compliance is
monitored.

4. We recommended that the Under Secretary for Health ensures that VHA defines in
policy acceptable reasons for missed controlled substances area inspections and
provides guidance regarding Controlled Substances Coordinator performance of
monthly inspections.

5. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that controlled substances
inspectors validate 2 transfers of controlled substances from one storage area to
another area, reconcile 1 day’s dispensing from the pharmacy to each automated unit,
and verify electronic or written orders for 5 randomly selected dispensing activities.

6. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that controlled substances
inspectors perform quarterly physical counts of the emergency drug cache and monthly
verification of seals and that compliance is monitored.


VA Office of Inspector General                                                                       5
                           Evaluation of the Controlled Substances Inspection Program at VHA Facilities


7. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that controlled substances
inspectors validate completion of all required drug destruction activities.

8. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that controlled substances
inspectors validate accountability for all prescription pads stored in the pharmacy.

9. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that controlled substances
inspectors conducting outpatient pharmacy inspections verify written prescriptions for
10 percent of (or a maximum of 50) schedule II drugs dispensed.

10. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility leaders, ensures that controlled substances
inspectors receive annual training regarding problematic issues identified through
external surveys and other quality control measures.




VA Office of Inspector General                                                                       6
                           Evaluation of the Controlled Substances Inspection Program at VHA Facilities
                                                                                          Appendix A
               Under Secretary for Health Comments


               Department of
               Veterans Affairs                                   Memorandum

           Date:       April 22, 2014

          From:        Under Secretary for Health (10)

       Subject:        OIG    Draft     Combined     Assessment    Program
                       (CAP) Summary Report – Evaluation of the Controlled
                       Substances     Inspection  Program     at   Veterans
                       Health Administration Facilities (2014-01785-HI-0435)
                       (VAIQ 7466184)

             To:       Assistant Inspector General for Healthcare Inspections (54)

       1. Thank you for the opportunity to review the draft CAP Summary
       Report, Evaluation of the Controlled Substances Inspection Program at
       Veterans Health Administration (VHA) Facilities. I have reviewed the draft
       report and concur with the report’s recommendations.

       2. Attached is the VHA corrective action plan for recommendations one
       through ten.

       3. If you have any questions, please contact Karen M. Rasmussen, M.D.,
       Director, Management Review Service (10AR), at (202) 461-6643 or email
       VHA10ARMRS2@va.gov.




       Attachment




VA Office of Inspector General                                                                       7
                           Evaluation of the Controlled Substances Inspection Program at VHA Facilities


                    VETERANS HEALTH ADMINISTRATION (VHA)

                                           Action Plan
   OIG Draft Report, CAP Summary Report – Evaluation of the Controlled
             Substances Inspection Program at VHA Facilities

Date of Draft Report: March 25, 2014


Recommendations/                               Status                              Completion
Actions                                                                            Date

OIG Recommendations

Recommendation 1. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
pharmacy physical security surveys are conducted and identified deficiencies are
corrected and that compliance is monitored.

VHA Comments

Concur

The Deputy Under Secretary for Health for Operations and Management will issue a
memorandum to reinforce VA Handbook 0730, Security and Law Enforcement,
including the requirement that the VA Police must conduct annual physical security
surveys of the pharmacy areas and take corrective action to resolve deficiencies. The
Veterans Integrated Service Network (VISN) Leadership will be responsible for
monitoring compliance and corrective actions.

                                               Status: In progress       Target Completion Date:
                                                                         June 30, 2014

Recommendation 2. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
quarterly controlled substances inspection trend reports of identified discrepancies,
problematic trends, and potential areas for improvement are completed and provided to
facility Directors.

VHA Comments

Concur

The Deputy Under Secretary for Health for Operations and Management will issue a
memorandum to reinforce VHA Handbook 1108.02, Inspection of Controlled
Substances. The Controlled Substance Coordinator (CSC) will provide trend reports of
discrepancies, problematic trends, and areas for improvement to the VA Medical Center


VA Office of Inspector General                                                                       8
                           Evaluation of the Controlled Substances Inspection Program at VHA Facilities


Director or Consolidated Mail Outpatient Pharmacy Director. Trend reports will be
reviewed by VISN Leadership during the annual Quality Management Oversight visit.

                                               Status: In progress       Target Completion Date:
                                                                         June 30, 2014

Recommendation 3. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
monthly inspections of all non-pharmacy controlled substances areas are conducted
and that compliance is monitored.

VHA Comments

Concur

The Deputy Under Secretary for Health for Operations and Management will issue a
memorandum to reinforce VHA Handbook 1108.02, Inspection of Controlled
Substances. This memorandum will include the requirement for the CSC to ensure
required inspections are completed each month in areas that store Controlled
Substances (CS).

                                               Status: In progress       Target Completion Date:
                                                                         June 30, 2014

Recommendation 4. We recommended that the Under Secretary for Health ensures
that VHA defines in policy acceptable reasons for missed controlled substances area
inspections and provides guidance regarding Controlled Substances Coordinator
performance of monthly inspections.

VHA Comments

Concur

VHA will issue a memorandum from the DUSHOM to clarify the updates in VHA
Handbook 1108.02, Inspection of Controlled Substances.          The content of the
memorandum will be presented on the Controlled Substance Coordinator’s (CSC)
bi-monthly learning calls, posted to the CSC National SharePoint, and e-mailed to the
CSC National Mailgroup.

                                               Status: In progress       Target Completion Date:
                                                                         September 30, 2014

VHA Handbook 1108.02 is scheduled for revision and will incorporate these changes.

                                               Status: In progress       Target Completion Date:
                                                                         April 1, 2015




VA Office of Inspector General                                                                       9
                           Evaluation of the Controlled Substances Inspection Program at VHA Facilities


This action will be completed when:
   1. A copy of the Memorandum is provided;
   2. Documentation of the Memorandum posting to CSC National SharePoint, and
       emailing to the CSC National Mailgroup is provided; and
   3. A draft of the VHA Handbook outlining the required elements is provided.

Recommendation 5. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
controlled substances inspectors validate 2 transfers of controlled substances from one
storage area to another area, reconcile 1 day’s dispensing from the pharmacy to each
automated unit, and verify electronic or written orders for 5 randomly selected
dispensing activities.

VHA Comments

Concur

A memo from the DUSHOM will be issued to reinforce VHA Handbook 1108.02,
Inspection of Controlled Substances. This memo will include the requirement for the
Controlled Substance Inspectors to validate two transfers of CS from one storage area
to another area, reconcile one day of dispensing from the pharmacy to each automated
unit, and verify electronic or written orders for five randomly selected dispensing
activities.

                                               Status: In progress       Target Completion Date:
                                                                         June 30, 2014

Recommendation 6. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
controlled substances inspectors perform quarterly physical counts of the emergency
drug cache and monthly verifications of seals and that compliance is monitored.

VHA Comments

Concur

The Deputy Under Secretary for Health for Operations and Management will issue a
memorandum to reinforce VHA Handbook 1108.02, Inspection of Controlled
Substances. This memorandum will include the requirement for the Controlled
Substance Inspectors to perform quarterly physical counts of the emergency drug cache
and monthly verification of seals. Compliance is to be monitored by the CSC.

                                               Status: In progress       Target Completion Date:
                                                                         June 30, 2014




VA Office of Inspector General                                                                      10
                           Evaluation of the Controlled Substances Inspection Program at VHA Facilities


Recommendation 7. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
controlled substances inspectors validate completion of all required drug destruction
activities.

VHA Comments

Concur

The Deputy Under Secretary for Health for Operations and Management will issue a
memorandum to reinforce VHA Handbook 1108.02, Inspection of Controlled
Substances. This memorandum will include the requirement for the Controlled
Substance Inspectors to validate the completion of all required drug destruction
activities and document on the inspection report.

                                               Status: In progress       Target Completion Date:
                                                                         June 30, 2014

Recommendation 8. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
controlled substances inspectors validate accountability for all prescription pads stored
in the pharmacy.

VHA Comments

Concur

The Deputy Under Secretary for Health for Operations and Management will issue a
memorandum to reinforce VHA Handbook 1108.02, Inspection of Controlled
Substances. This memorandum will include the requirement for the Controlled
Substance Inspectors to verify the accountability of all prescription pads stored in the
pharmacy.

                                               Status: In progress       Target Completion Date:
                                                                         June 30, 2014

Recommendation 9. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
controlled substances inspectors conducting outpatient pharmacy inspections verify
written prescriptions for 10 percent of (or a maximum of 50) schedule II drugs
dispensed.

VHA Comments

Concur

The Deputy Under Secretary for Health for Operations and Management will issue a
memorandum that reiterates guidance provided to the field in a prior memorandum


VA Office of Inspector General                                                                      11
                           Evaluation of the Controlled Substances Inspection Program at VHA Facilities


dated July 1, 2013. This memorandum clarified requirements in VHA Handbook
1108.02, Inspection of Controlled Substances, with the implementation of e-prescribing
for controlled substances. This memorandum will include the requirement for the facility
Director to ensure the Controlled Substance Inspectors who conduct outpatient
pharmacy inspections verify 50 hand-written prescriptions (or all if less than 50) for
schedule II-V drugs dispensed.

                                               Status: In progress       Target Completion Date:
                                                                         June 30, 2014

Recommendation 10. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility leaders, ensures that
controlled substances inspectors receive annual training regarding problematic issues
identified through external surveys and other quality control measures.

VHA Comments

Concur

The Deputy Under Secretary for Health for Operations and Management will issue a
memorandum to reinforce VHA Handbook 1108.02, Inspection of Controlled
Substances. This memorandum will include the requirement for the VISN/Facility
Director to ensure the Controlled Substance Inspectors receive annual training
regarding problematic issues identified in this OIG report as well as other quality control
measures.

                                               Status: In progress       Target Completion Date:
                                                                         June 30, 2014




VA Office of Inspector General                                                                      12
                           Evaluation of the Controlled Substances Inspection Program at VHA Facilities
                                                                                          Appendix B

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Jeanne Martin, PharmD, Project Coordinator
                         Annette Acosta, MN, RN
                         Daisy F. Arugay, MT
                         Bruce Barnes
                         Lisa Barnes, MSW
                         Debra Boyd-Seale, RN, PhD
                         Elizabeth Burns, MSSW
                         Paula Chapman, CTRS
                         Victoria Coates, LICSW, MBA
                         Laura Dulcie, BSEE
                         David Griffith, RN, BS, CHCQM, FAIHQ
                         Rose Griggs, MSW, LCSW
                         Deborah Howard, RN, MSN
                         Terri Julian, PhD
                         Gayle Karamanos, MS, PA-C
                         Francis Keslof, EMT, MHA
                         Sandra Khan, RN, BSN
                         Yoonhee Kim, PharmD
                         Noel Rees, MPA
                         Laura Snow, LCSW, MHCL
                         Laura Spottiswood, RN, MPH
                         Joanne Wasko, LCSW
Other                    Elizabeth Bullock
Contributors             Jeffrey Joppie, BS
                         Julie Watrous, RN, MS




VA Office of Inspector General                                                                      13
                           Evaluation of the Controlled Substances Inspection Program at VHA Facilities
                                                                                          Appendix C


                                 Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
Office of the General Counsel
Office of the Medical Inspector
Veterans Integrated Service Network Directors (1–23)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget


This report is available at www.va.gov/oig.




VA Office of Inspector General                                                                      14
